HHS/OIG, Audi t- "Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries in the State of Louisiana, (A-06-02-00036)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries
in the State of Louisiana," (A-06-02-00036)
December 3, 2002
Complete Text of Report is available in PDF format
(405 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare fee-for-service
claims paid in Louisiana for beneficiaries identified as incarcerated during
the period January 1, 1997 through December 31, 1999 were in compliance with
Federal regulations and Centers for Medicare & Medicaid Services (CMS) guidelines.
Louisiana was 1 of 10 states selected as part of a nationwide review requested
by the Senate Finance Committee.  We found that our random sample of 100
claims included 75 allowable claims, 18 unallowable claims and 7 claims for
which the allowability of the claim could not be determined.  The CMS plans
to establish an edit in its Common Working File (CWF) that will deny claims
for incarcerated beneficiaries.  We believe the planned edit will prevent
many improper payments for claims of incarcerated beneficiaries. However, we
believe CMS and its contractors will need to educate suppliers and providers
on the proper use of the modifier or condition code. Also, claims with the modifier
or condition code must be monitored to assure the conditions under regulations
at 42 CFR 411.4 (b) required for payment are, indeed, being met.  CMS regional
officials agreed with the findings and recommendations.